  DYSFUNCTIONAL FAMILIES IN THE HEAD START PROGRAM:
              MEETING THE CHALLENGE




                  RICHA P. KUSSEROW
                  INSPECTOR GENERA




OAI-09-89-01000                           NOVEMBER 1989
EXECUTIVE SUMMARY

PURPOSE

Ths Head Star program inpection was conducted to (1) assess the needs of
dysfuctonal fames , (2) estimate the number of enrolled children from
dysfuctonal fames and (3) identif ways to overcome servce delivery barers
faced by dysfuctonal famlies.

BACKGROUND

Head Star operates on the premise that chidren are best prepared for success
grade school and beyond when they and their parents are involved in a
comprehensive program that addresses their educational, economic, social, physical
and emotional needs. Head Star addresses the needs of the entie famiy by
identifg the famy s social servce needs and promoting cooperative relationships
among the famy,   Head Star staff and servce providers.

In recent years, Head Star sta   have expressed concern about adequately   servg
dysfuctional , or multiproblem, famlies. Although most Head Star fames have
some dicuty coping with certai aspects of daiy livig, the dysfunctonal famy
problems are considered so severe that the famly is unable to  fu  the necessary
physical social and psychological needs of the chidren and other famy members.

MAJOR FINDINGS

The comprehensive needs of dysfunctional familes pose a special challenge for
Head Start grantees.
According to Head Star grantees, the problems most frequently faced by
dysfunctional famlies involve substance abuse, lack of parenting skills, child abuse
domestic violence and inadequate housing. As a result, dysfuctional    famies need
a wide range of servces.While al agreed that Head Star should serve
dysfuctional famlies, some grantees were concerned about the additional demands
that these fames place on their program and staf.

The number of dysfunctional familes in Head Start varies widely from grantee to
grantee.
The estimated percentage of chidren from dysfuctional fames curently enrolled
in Head Star ranges from zero to 85 percent. No clear growth trend emerges, since
almost hal of the grantees reported a decrease or no change in the number during a
  year period. Several grantees reported an increase in the severity of the problems
faced by dysfunctional famlies.

Although grantees have diffculty providing servces to dysfunctional familes, they
have found some creative solutions.
Servce referrals for dysfuctional famlies are frequently inadequate or unavailable.
Grantees have aleviated some of the servce delivery barers by developing
inovative approaches     including the establishment of parenting program , support
groups and special classes.

Income guidelines, performance standards and lack of resources limit grantees
abilty to serve   some of the children from dysfunctional familes who are not
eligible for federal " safety net" programs.
Grantees agree that social needs should be considered as part of enrollment criteria.
Neverteless, many children from dysfunctional fames are not enrolled because
the famlies are the working poor and therefore exceed the income guidelines or
because other poor famlies have lower incomes and are accorded higher priority for
enrollment. These children may need Head Start even more than some children
from currently eligible famiies who have the " safety net" of public assistance
Medicaid , food stamps and subsidized housing.

RECOMMENDATIONS

1. Head Star should revise its enrollment criteria to provide grantees great
flexibilty to enroll children from dysfunctional families.

2. Head Star should use its discretionar grant authority to (a) develop ways of
providing better access to community resources , (b) develop and test new and better
approaches for Head Start grantees to assist dysfunctional families and (c) collect
and diss eminate successful strategies and best practices that grantees are using to
meet the needs of dysfunctional famiies. (NOTE: This recommendation is
consistent with the recommendations developed by the National Head Start Social
Servces Task Force.

COMMENTS

We have modified our recommendations based on comments received from the
Assistant Secretar for Human Development Servces (HDS). The complete HDS
comments are included in the appendix to the report.
TABLE OF CONTENTS



EXECUTI SUMMAY
INTRODUCTION

FINDINGS

  The comprehensive needs of dysfunctional familes     pose a
  special challenge for Head Start grantees.

     Dysfuctional fames face serious physical, mental and
     social problems.

     Alost all grantees believe that Head Star is the best
     program for chidren from dysfuctional fames despite
     the additional demands placed on staf.

  The number of dysfunctional familes in Head Start varies
  widely from grantee to grantee.

  Although grantees have diffculty providing servces to
  dysfunctional familes, they have found some creative
  solutions.

     Dysfuctional famlies have diculty      obtainng needed
     servces.

     Grantees have creatively overcome some servce delivery
     barers.
  Income guidelines, performance standards and lack of
  resources limit grantees ' abilty to serve some of the children
  from dysfunctional familes who are not eligible for federal
   safety net" programs.

RECOMMENDATIONS AND COMMENTS

APPENDIX: HDS Comments on the draf        report
INTRODUCTION

The Head Start Program

Head Star is a comprehensive early childhood development program for preschool
chidren from low- income famies. Established in 1964 ,        Head Star anually   serves
approxiately 450,         00 children between the age of 3 and school entry age. A
low-income famy, for Head Star enrollment puroses, is a family whose income is
below the povert level (as defined by the Offce of Management and Budget) or a
famy who is receiving public assistance , even if the famy s income exceeds the
povert level. At least 90 percent of the children who are enrolled in each Head
Star program must be from low- income fames. The Head           Start regulations state:
 ll applications for admission. . . are received for more children from low-income
famlies than the Head Star program can accommodate, the children from the
lowest income famlies shall be given preference.

Head Star consists of four major components (education, health, parent
involvement and social servces) which are designed to serve children and their
famlies. In Fiscal Year 1988 , Head Star was administered th ough 1 29110
public and private non-profit grantee agencies at a cost of approximately $1.2 bilion.
The grantees are approved and funded by the Offce of Human Development
Servces (HDS) of 
  he Deparent of Health and Human Servces (HHS).

Although grantees are encouraged to tailor their programs to local community needs
and resources, HHS has developed national program goals, objectives and
performance standards. According to HHS reguations, the overall goal of Head
Star is to increase social comp'etence for chidren of low-income families. To
accomplish this goal, objectives and performance standards are concerned with such
things as the chid' s health , self-confdence and mental skills, as well as the child'
abilty to relate to his famly and the enhancement of the child and the family s sense
of dignty and self-worth. Specific performance standards for each of the four major
components of Head Start requie , among other things, that grantees:

           involve parents in educational activities and provide parent training,
           provide a health education program for parents
        . identi the social servce needs of Head Star families and

           provide methods and opportunities for involving parents in the
           identification and use of family and community resources to meet the
                      upport needs of the famy.
           basic life 




Head Star emphasizesthe role of parents in their children s education and
development and promotes cooperative relationships among the family, Head Start
staf and servce providers.
In order to assess the needs of the famy, Head Star has developed the Famly
Needs Assessment (FNA). Head Star has issued a model FNA, but grantees can
develop local varations. Al grantees are requied to admister an FNA for every .
famy at the tie of enrollent or shortly t ereafer. The FNA is intended to help
Head Star staf and the famly identif famly needs and obtai appropriate servces.

Cuently, Head Star has the capacity to enroll only about one in six preschool
chidren eligible for the program. President Bush has requested an additional
$250 mion in the Fisca Year 1990 budget to expand Head Star to serve more
eligible chidren.
Dysfunctional Familes and Head Start
In recent years , Head Star staf       have expressed   concern over the growig number of
dysfuctional , or multiproblem, families enrollng in the program. This concern was
reiterated by the National Head Star Social Servces Task Force which was created
by the Commssioner of the HDS Administration for Chidren, Youth and Famies.
The Task Force issued a report in November 1988 that stated:

            With the ever increasing number of multiproblem or 'dysfnctinal'
           families being seen in the countr, Head Star program have had
           careflly examine their cu"ent approaches to determine if they are
           suitable or efectie in successflly assisting many of these families to
           overcome those plaguing problems confronting them.

Since Head Star enrolls the " neediest of the needy, " most Head Star        families have
special needs and experience difficulty coping with aspects of daily living. A
dysfuctional famy s problems are so severe , however, that the famy is unable to
meet the physical, social and psychological needs of the chidren and other famy
members. They are , therefore , unable to benefit fuly from the Head Start program.

The term " dysfunctonal family" and " multiproblem family" are often used
interchangeably. The following descrption of multiproblem famlies , taken from
            Working With Dvsfunctional Families. closely miors the description
Lisa Kaplan 


of dysfuctional fames that we heard from Head Star grantees:

           The multiproblem family has a number of problems that cut across many
           dimensons of family life. Such a family can neither handle these
           problems itself nor find help in services available in the community. Its
           inability to cope with its problems ditinguishes this family from others.
           Repeated negate interactions destroy the possibility of positie
           communicaton and understqnding 'aong family members.

        . Multiproblem families are often isolated and alienated, possessing few, if
            any, positie   support networks. Exernal problems may include the
           family s inability to get help from community agencies becaue it does not
       Taow how to access services or becaue it has been thoroughly
       overwhelmed by the service system and/or angered by past encounters
       becaue of the failure of human service agencies to meet the family's
       needs. The relatonship between human service agencies and the
       dysfnctional family is characteried by mutual alienation.

For this inpection, we told grantees that we were interested in discussing those
famlies with serious problems that present barers to their ful participation in
Head Star, paricularly in such areas as attendance , parent paricipation, referrals
and home viits.

METHODOLOGY

We drew a random sample of 117 Head Star      grantees from the universe of
approxiately 1 170 grantees. The sample consisted of Head Start      program
throughout the country and included both urban and rural grantees with enrollments
rangig from 20 children to over 3, 500. We did not include Indian, migrant and
terrtorial Head Star program for two reasons: (1) they are admistered
separately from regular Head Star program and (2) these grantees are so different
from reguar Head Star grantees that they should be studied separately. . Grantees
were cont cted by telephone and requested to provide (1) estimates on the numbers
and percent of dysfunctional families served, (2) the nature of the families ' problems
and (3) inormation about servces needed by dysfuctional famiies, barriers to
getting servces, impact on staf   and enrollment   policies. We completed interviews
with 116 of the 117 grantees.
                        . .




FINDINGS

THE COMPREHENSIVE NEEDS OF DYSFUNCTIONAL FAMILIES POSE A
SPECIAL CHALLENGE FOR HEAD START GRANTEES.

Dysfunctional familes         face serious physical ,                     mental and social problems.

Although dysfuctional famies face many different tyes of problems, some are
clearly more pervasive than others. Grantees raned substance abuse, lack of
parentig skills, child abuse, domestic violence and inadequate housing as the most
common problems shared by dysfuctional famies. In discussing the most reported
problem, substance abuse, grantees mentioned both alcohol and ilicit drugs
includig cocae, crack cocaie and heroin Altogether, grantees identified about
30 diferent problems that may characterie dysfunctional families. Included in the
list were such things as mental iless, a jaied parent, severe health problems and
ilteracy.
Grantees cited substance abuse and child abuse and neglect most often as the
problems that have worsened since 1986- 87. Some grantees felt that increased drug
use has led to increases in other problems, such as child abuse and domestic
violence. Some stated that the increase in drug-related cries resulted in declining
parent paricipation because people are afaid to leave their homes in the evening.


Many grantees mentioned an increase over the last 3 years in the third most
reported problem, lack of parenting skills. These grantees described the tyical
parent as a teen-age, single mother who lacks basic parenting skils, education and
job traing. She   is apathetic towards parental duties and defers toher mother for
priar caretakng. These mothers require substantial Head Start staff
commtment.

The followig grantee comments ilustrate how difcult it is for Head Start to
identi and treat the problems associated with                          dysfuctional families:

       Substance abuse is more a ' result ' than the problem; it stems from other
       issues like economics and           mental ilness.
       Lak of education, job training program, incenties to work and low self
       esteem are the PROBLEMS; the reasons that families become
       dysfnctional.
                       problems like alcohol and substance abuse are
       syptoms of the dysfnction not the caues.
        The problems are so interrelated; for example, homelessness often results
       from substance abuse.
      The combinaton of financial, social and emotional problems results in
      so much stress that the family cannot function.

Grantees told us about several case studies that ilustrate the problems faced by
dysfuctonal fames:

       This single mother is depressed and suicida.    She   had been told as a
       child by her mother that she was not wanted. She grew up in foster
       homes. Her husban was emotionally abusive and lef her, and her
       eldet son recently   died. She is on welfare and lacks all educational,
       homemakng, parenting and job skills. Her twins are nonverbal becaue
      she never talked to them They alo      do not walk well   because they were
       kept in their cribs or play pen and seldom had freedom of movement.

       The four children in  this family have three different fathers. Their
       mother was sent to prion for      months last year and the family was
       broken up and scatered among family members. The children
       behaior was so inappropriate that they were placed in foster care. While
       in counseling, the Head Star child disclosed information about abuse in
       the house. When the mother regained custody of the children, the Head

                                                             ulcer.
       Star child became more violent, used profanity and displayed extreme
       mood changes. The child has alo deeloped an

       The parent of this Head Star child are illiterate and have no parenting
       skills. The Child Protectie Service had already taken away three of the
       mother s other children due to neglect and abuse. Afterwards, she gave
       birth to three more children. The Head Star child was still in diapers
       becaue the mother did not know how to toilet train. The children were
       locked in their bedroom because the mother could not stand their
       actiity. The children were abused, neglected and lacked basic medical
       care, inc;luding immunizations. The mother lacked transportation, and
       the father was not willing to tranport the children if it required him
       missing work. The mother greatly ditrted social service agencies.

       The family lives in a rural area, with no running water or sewage system.
       Both parents are lacking parenting and job skills. The father has a drug
       abuse problem and abuses his spouse. He openly states that he expects
       his son to fail as he did. The child has a fear of socializing when at the
       center.

       This single mother is overwhelm d by responsibility. She often leaves her
       children alone and unsupervised while she sleeps. Substance abuse is
       suspected but not confirmed. Her lack of parenting skills and the other
     . family problems are reflected in the behavior of the Head Start child.
        The child has little self-confidence, is withdrawn in class and rebels




                                           - 5
       against her mother. The family's lack of   tranportation has   mad it
       virtly impossible for the child to atend the center.
Almost all grantees believe that Head Start is the best program for children
from dysfunctional familes despite the additional demands placed on staff.

Despite the diculties    they   face in providing servces to dysfuctional famlies,
90 percent of the grantees believe that Head Star is the program best able to serve
these fames. Accordig to the grantees, Head Star is successfu in servg
dysfuctonal fames because:
        . Head Star   treats famy problems holisticaly and comprehensively by
           providig support   for physical , social and educational needs. Outside
           servce providers are unuccessful because they treat problems in
           isolation.
       . Head Star buids trust with fames when they do not trust other social
         servce providers. Famiies feel comfortable coming into the Head Start
           center and are more willng to accept treatment.
        . Knowledge about the famy helps Head Star staf get better results.          "
           know every miute detai about the famy because.of the amount of
           contact we have " said one respondent.
        . Many grantees emphasized local flexibilty as a reason for Head Star'
           success in servg dysfuctional famies. As one grantee stated The
           strong performance standards make possible a flexible strcte; in fact,
           the beauty of Head Start is that it can adapt to every communty and every
           famy.
Grantees offered specic     examples of     their successes workig with dysfunctonal
fames. The fist success      story                        tw
                                     involves the mother of       who was mentioned in
the fist case study   on page 5:

       This mother was involved in the Head Star program for a total of 4
       year--  2 year with the twins and  year when the baby was Head Star
       age. The home visitor helped by first working on her self-esteem and then
       on life skills. A homemaker was secured by the Bead Start program to
       teach her homemaking and cooking skills. This mother was brought to
       parent workshops where, at first, she only looked at the floor. Gradally,
       she became involved in the policy council and eventually was elected
       president of the State parents ' associaton. The home visitor assisted her
       in receiving vocational money which she used to atend a State college
       where she gradated magna cum laude in journalism. She now works
       for a local newspaper.
Another case study also ilustrates the success of the Head Start home visit program:

           At the time she enrolled her daghter in Head Star, this mother was in
           the mide of a diffcult diorce. Her self-esteem was very low, and she
           was having behaior problems with her two children. Although she
            atended parent meetings, she was too shy to parcipate. Through the
            home visit program, Head Star was able to help her gain self-confidence.
            She was elected to the Head Star policy council, where she served as
            Secretar and was encouraged by the home visitor to tak the entrance
            exam for the job training parership program. She passed with flying
            colors and has since enrolled in a State university where-   she is a straight

                                 gradating with an
                 student and wil be                        associate degree in
            informaton processing and offce technology nex year.

Several respondents felt that, while Head Start may be the best resource , it should
not be viewed as the exclusive resource. As one grantee stated I would not want to
see Head Star work 
            only with dysfunctional famlies or go out of its way to enroll
dysfuctional famlies.

While dysfunctional famlies caused some diffculties in meeting performance
standards and some problems for staf, most grantees reported that these were not
overwhelming or crpplig. For example:


             . About 62 percent said parent paricipation stayed th          same or increased
                  durg       the last 3 years. Some grantees reported that their parent
                  parcipation rates could only be maintained through increased staff
                  efforts.
             . Overall , attendance is down about 0. 5   percent during the last 3 years , but
                  most grantees attributed this to sickness and tranportation problems, not
                  dysfunctional famlies. Only 9 out of the 51 who reported decreases in
                  attendance mentioned causes that could be related to dysfunctional
                  fames.
             . About     73 percent of the grantees indicated that they experience major
                  classroom disruptions, but only 16 percent said the disruptions were very
                                                           said that major disruptions
                  frequent or severe. A majority of grantees
                  were inrequent and limited to a smal number of children. While some
                  attrbuted the disruptions to normal4-year-old behavior , many of the

                  grantees that reported increased disruptions since 1986 associated the
                  disruptions with dysfunctional families.
             . Most        ntees (86 of 116), said there was no change in the difficulty in
                  makg home visits, while 27 said it is getting more difficult and 3 said it is
                  easier. Approximately one-fourth of the grantees did , however , express
                  concern about potential violence or harm to staf during home visits.
Grantees report that working with dysfunctional famlies takes much more staff time
and often leads to stress and burout. About 84 percent noted increased demands
on staf tie.     One-to;.one counseling, assistance to parents and families , extra home
visits , referral for outside treatment and dealig with the children in the classrooms
takes the most tie.   About two-thrds said staf are adversely affected by stress,
burnout and frstration. Despite these problems, only 22 percent   of the sample
reported increasing staf turnover. Moreover, while stress related to dysfunctional
fames was mentioned as a cause of sta tuover, most grantees stated that low
pay was a more important factor. 


Approxiately one-thid of the grantees said that some children should not be
enrolled in Head Star. Violence and major handicapping conditions were most
frequently mentioned as categories of families that Head Start might not be able to
serve. " We wi not serve a famy if there is reason to believe it is unsafe to do so.
Violence in the household , chairs thrown at our workers or threatening with guns
are reasons why we would not serve a famly. " Fames or children with      severe
handicapping conditions such as the profoundly retarded were also mentioned
priary because some Head Start grantees feel they do not have the resources to
serve such famies effectively.

THE NUMBER OF DYSFUNCTIONAL FAMILIES IN HEA START VARES
WIDELY FROM GRATEE TO GRATEE.

Measurable , objective standards to identif dysfunctional families do not exist , and
grantees do not usualy identify dysfunctional families during the Family Needs
Assessment. Also, grantees are not required to maintain statistics or separate
records on dysfunctional famlies. Most grantees said that they usually do not know
the ful extent of a famly s problems at the time of enrollment , because people are
reluctant to discuss their problems durng the FNA Grantees feel that there is no
way to get information until trust is established. As one grantee said:

       After talking to them awhile, they open up. No real change has to take
       place. You just have to take the time to get to know the family, and that
       taks at least one home visit.
The grantees arved at their estimates of the number of children from dysfunctional
famlies priary through discussions with staff and personal knowledge. Almost
60 percent of the grantees also conducted a record 'review to identify those familes
whom they consider dysfunctional.

The estimated percentage of children from dysfunctional families currently enrolled
in Head Star ranges from zero to 85 percent and has no relationship to the size or
location of the program. Nine grantees with enrollments ranging in size from 34 to
520t reported that none of their current chidren are from dysfunctional families. :
Sixteen grantees with enrollments rangig in size from 30 to 2561 reported that 50
percent or more of their current chidren are from dysfunctional famlies. There was
an equal distrbution of high and low percentages among rural and urban grantees.

The 116 grantees estiated that 16 percent of the enrolled children came from
dysfunctional fames in 1986 and 21 percent were from dysfunctional families in
1988. No clear trend emerges , since alost hal of the grantees reported a decrease
or no change in the number durg the 3-year period.

         CHANGE IN PERCENTAGE OF DYSFUNCTIONAL FAMILIES
                 COMPARED TO TOTAL ENROLLMENT
                                      (1986 TO 1988)
                                                       Number of Grantees ReportinQ

       Decreases in percentage
       No change
       Increase of less than 5 percentage points
       Increase of 5-9 percentage points
       Increase of 10 percentage points or more
       TOTAL                                                       116



The highest increase over the period was 26 percentage points reported by only one
grantee. Grantees that reported increases in the number of dysfunctional families
also reported that parent parcipation has decreased , home visits and referrals are
more difcult and classroom disruptions have increased. .



The data show that the problem of dysfuctional famies is an ongoing one that
most grantees have been coping with over tie. Some grantees perceive the severity
of the problem as correlated with local community phenomena such as factory
closures or changes in the farm economy. Thus , they see changes as cyclical rather
than representative of a trend.



              fames.
Several grantees (even some that reported a decrease in the number of
dysfunctional famies) reported an increase in the severity of the problems faced by
dysfunctional

ALTHOUGH GRATEES HAVE DIFFCULTY PROVIDING SERVICES TO
DYSFUNCTIONAL FAMILIES, THEY HAVE FOUND SOME CREATIVE
SOLUTIONS.

Dysfunctional familes have difficulty obtaining needed services.

Grantees encounter many servce delivery barers when they try to help
dysfunctional famlies.Two-thirds of the grantees have diffculty makig referrals
because servces are not readily avaiable in their communties. Grantees also have
con ern about the quality and accessibilty of key servces for dysfunctional families.
They face the problem of providing servces when the family is unable or unwillng
to accept referrals.

According to the grantees, dysfunctional famies    most   frequently need:
          mental health servces,
          housing,
          substance abuse treatment,


          education/job training,
          medicaldental servces,
          parenting skis traig and
       . chid abuse counseling.

Grantees reported dissatisfaction with servces provided by community mental
health centers because the centers are drasticaly understafed and may not be
sensitive to the needs and problems of dysfuctional famlies. The grantees find that
fames do not feel comfortable using the centers which do not generally address the
mental health needs of young children. 


Grantees reported diffculty obtainig medical and dental servces for all their
famlies. Dysfunctional famiies , because of their multiple needs, have an especially
dicult time   obtaing these servces. For example , grantees said:
       Prenaal care has been cut drastically. The well-baby clinic is
       nonextent now. Immunizatons are no longer free.

      Doctors won t take Medicaid becaue the State is so late with the
      payents. We have tried to pay the doctors ourselves and then take the
       reimbursement, but we can only do this on a limited basis.

Grantees expressed strong dissatisfaction with the decrease in resources for child
protective servce agencies (CPS). They feel that CPS staffs are overburdened,
inexperienced and can deal only with crsis situations. Several grantees said that a
referral to CPS is "meangless. " This problem is complicated by the fact that Head
Star grantees are legally required to report child abuse. Grantees are concenied
that if they report child abuse to an agency which will not follow up, they may only
alenate the famiy and perhaps lose any help for the child and parents.


About 72 percent of grantees indicated diffculties in making referrals because of
the famlies ' unwigness or inabilty to accept the referral. Many qualified their
responses , however, by indicating that difficulties happen only with certain tyes of
referrals or that they happen infrequently. 


                                         - 10
           . .




Grantees note that   denial     fear are major reasons famlies are unwillng to accept
                                      and

referrals. Denial is most   common   in fames with substance abuse problems. It is
also a problem when referrals involve domestic violence, mental health or children
with special needs. Fames are also unwiing to accept referrals due to fear of
reprisal (e. g. removal of the children from the home), failure and stigmatization.
Ths seems to be common in smal communities. Other explanations for a family
being "unwilling" to accept a referral include pride, hopelessness and lack of interest.

Grantees feel that Head Star should provide more tranportation. Transportation
is the most common reason that famies are "unable " to complete a referral.
Dysfunctonal famies, more than other families, lack transportation or the
motivation to get tranportation. Grantees who cannot provide adequate
tranportation rate this high on their ' 'wsh list.

Grantees have creatively overcome some service delivery barriers.
Grantees have implemented many good ideas for dealing with dysfunctional
famlies. These ideas can be grouped under such topics as mental health training,
parenting program and support groups, special classes or groups for severely
disturbed and dysfunctional famiies, stress reduction and tracJdng famlies. after they
leave Head Start. Specific projects include the following:
             . Some grantees have a mental health expert on staff or a mental health
                     consultant under contract. These professionals deliver mental health
                     servces in the Head Star center. These grantees believe direct provision
                     of mental health servces is the most effective way to meet the needs of
                     dysfuctional famies.
             . Some grantees use Qther agencies to train Head Start staff; they
                     concentrate on developing the stafs     intervewing techniques so they can
                     acquire better information from the famies.
             . Some grantees have a "personal safety curriculum" for all kids and
               parents. The program teaches the diference between " good touches " and
                     bad touches "    and has resulted in several children reporting child abus
                     each year.
             . In       some Head Start programs , when a problem is first identified in the
                     classroom, the teacher meets with other Head Start staff and the mental
                     health consultant to formulate a " team approach.
             . Some grantees have a key or lead contact within each referral agency
                     which makes the referral process easier. The contact in the agency trusts
                     Head Star and knows that if Head Start calls there is a pressing problem
                     that must be taken care of immediately.
                     One grantee acquired an " innovation grant!' for children of alcoholic
                     parents to form a suppo.r group which helps the child acquire better
                     coping skills.
The following are a few examples of specific progran intiated by Head Start
grantees to serve dysfunctional famlies better and help them overcome barriers to
servce:

                                TEEN PREGNANCY PROGRAM
                                   CENTER , COLORADO

Ths Head Star grantee has become acutely aware of the increasing problem of teen
pregnancy. In response to this concern the grantee formed a coalition which has
met regularly over the past 2 years. The coalitiOIi has coordinated with the
Governor s Intiative on Teen Pregnancy, supported legislation for Comprehensive
Health Education in public schools, sponsored activities for youth and supported
Moms-to- Moms efforts. The group is dynamc and positive and will continue to
work to solve the problem of teen pregnancy.

                           CHILD ABUSE TREATMENT PROGRAM
                                SPOKANE , WASHINGTON

Spokane Community Mental Health Center and Spokane County Head Start
recognzed there are increasing numbers of dysfunctional families where children
are at risk. The two agencies established a joint effort to change the lives of abusive
parents and abused children. The partnership provides intensive servces for
famies without mean to seek other resources.

The tyical parent in the program is white, single and female. She is between 18 and
24 years old and is a recipient of Aid to Famlies with Dependent Children. She
most often comes from a childhood where she was a victim of sexual abuse , physical
abuse or neglect or a combination of these. The average child in the program has
experienced moderate to severe abuse and/or neglect.

The parents meet three times weekly in a therapy group, which focuses on personal
parnership and          famy problems. This cooperative effort has enabled staff to
integrate child and adult therapy program. The program allows for a
comprehensive coordinated effort by community agencies to work more effectively
with families and the issues surrounding child abuse and neglect in a mainstream
setting.

                               THE MENTAL HEALTH PLAYERS

                                    ELMIRA, NEW YORK

The Head Star prQgram    has developed an agreement with the Elmira Mental
Health Players to provide nontradi ional training for parents leading to increased
awareness of mental health issues. The Elmira Players work at the Elmira
Psychiatric Center and use role playing for community education. Where lectures
left audiences cool 
d unresponsive, role-playing involved and moved them. The
                                                                         ..-




Elmira Players have made hundreds of presentations before diverse audiences on
scores of mental health themes.

The Elma Players, workig Without       scrpt, spontaneously role-playa scene or
situation before an audience. The situation might be that of a parent grieving for a
chid , an alcoholic mother in the famly, a hyperactive child in the classroom, a
depressive patient in a mental hospital or a pregnant teenager confronting her
parents. A moderator tells the audience about role-playing and about the problem
to be portayed. The players come to the platfori already in character and act out
the scene. Ths may take from 8- 15 miutes. The audience participates by
questionig the Players. The Players respond in character, sustaining the feeling of
authenticity. The moderator closes with   an interpretive synopsis.


A real lie situation, acted out on a stage , involves the audience on an emotional
level. Better understanding, acceptance and constructive attitude changes are more
liely to occur in this process than would occur in reaction to a lecture or even a
fi. The Players are helping Head Start establish its own players group to focus on
mental health issues affecting Head Start families.

INCOME GUIDELINES, PERFORMCE STANDARS AND LACK
RESOURCES LIMIT GRATEES' ABILITY TO SERVE SOME OF THE
CHILDREN FROM DYSFUNCTIONAL FAMILIES WHO AR NOT ELIGIBLE
FOR FEDERA " SAFETY NET" PROGRAS.

More than one-third of the grantees believe that cuent income guidelines do not
alow them to enroll the most needy famlies. In paricular, grantees believe the
gudelines exclude many of the workig poor. These are families who may have
severe needs but with incomes above the guidelines and usualy with no health
inurance or other benefits. These fames do not receive Aid to Families with
Dependent Children, food stamps, subsidied housing or Medicaid because their
incomes slightly exceed the poverty level. Some grantees stated they specifically
excluded such enrollees because Head Start would have to pay medical bils:

       Ioften accept AFDC kids before others who may need help more so we
       won t be stuck with medical bills on that child--so our medical dollars
       will go farher.

Almost al grantees believe enrollment should take into account the socially needy.
Some programs already are doing this in determning the " neediest of the needy
within the current income guidelines. Guidelines used by some grantees take into
account such factors as income , age of the child (with 4-year olds having precedence
over 3-year olds), isolation of the famly, a single parent family and referrals from
other agencies. Some grantees say these criteria should be given as much weight as
   dicapping conditions when deciding to enroll a family. 

Several grantees stated that the performance standards for attendance and parent
paricipation sometimes actally worked agait servng dysfunctional families.
Because these famlies have erratic attendance in the classroom and at Head Start
fuctions , many are dropped from enrollment.
Many grantees observed that dysfunctional famies frequently "fall through the
cracks" and are not enrolled. The followig are examples of families who are hard to
reach:

      At the far   and shanties on the outskirts of town, they are afraid
      social workers, they are hard to reach, they are transient people living in
      car and tent.

       We don t reach the mother lying   drnk in the trailer park who is not able
       even to enroll a child--she will be caught later in public school, which is
       compulsory. .
RECOMMENDATIONS AND COMMENTS


RECOMMENDATION #1-ENROLLMENT CRITERIA

RECOMMENDATION: Head Star should revise its enrollment criteria to provide
grantees greater flexibilty to enroll chidren from dysfunctional famlies.
DISCUSSION: Cuent eligibilty crteria require that at least 90 percent of families
have incomes below the income eligibilty gudelies and that famlies with the
lowest income be accorded the highest priority. Ths latter requirement prevents
grantees from enrollg poor dysfunctional fames even if their needs are greater
than other fames with lower incomes.

RECOMMENDATION #2-- DISCRETIONARY GRANTS

RECOMMENDATION: Head Start should use its discretionar grant authority
(a) develop ways of providing better access to community resources , (b) develop and
test new and better approaches for Head Start grantees to assist dysfunctional
famlies and ( c) collect and disseminate successful strategies and best practices that
grantees are using to meet the needs of dysfunctional families.

DISCUSSION: Although grantees generaly are coping with the special needs of
dysfuctonal fames, they face servce delivery barers. These barriers include
inaccessible servces and inadequate community resources. (NOTE: This
recommendation is consistent with the recommendations developed by the National
Head Star Social Servces Task Force.

COMMENTS

We received comments from the Assistant Secretar for HDS. Originally we
recommended that Head Star set aside funds from the FY 1990 budget to serve
dysfunctonal famies. The HDS disagreed with this recommendation, stating that a
policy decision had been made to use additional Head Star funds to serve up to
95, 000 additional children. We recogne that nationally the need for Head Start
servces is great and that the realities of making a choice between serving additional
chidren and increasing servces to dysfunctional famlies is difficult. Therefore , we
defer to HDS on this matter and have dropped this recommendation. Weare
pleased to note that HDS wil give grantees as much flexibilty as possible to target
and serve - dysfunctional famiies.

We originaly recommended that HDS consider revising its eligibilty criteria to
provide greater flexibilty to enroll dysfunctional famies \\th incomes above the
income eligibilty guidelines. The HDS disagreed , stating that most of its grantees
had not yet exhausted their current authority to enroll up to 10 percent of their


                                         - 15
clients from famlies with incomes above the povert income gudelines. The HDS
further stated that it has prepared a Notice of Proposed Rulemakg (NPRM) which
would provide greater flexibilty to grantees to enroll dysfuctional famies.
Although we continue to believe that grantees should have greater flexibilty to
serve over-income dysfunctional famlies, we agree that the NPRM is a step in the
right direction, and we have changed our recommendation accordingly.



appendix. 

The HDS fuly concurred with our recommendation to use its discretionar grant
authority to help dysfunctional famies. Complete HDS comments are in the
::j               ,...

         DEPARTMENT OF HEALTH &. HUMAN                              ERVICES
                                                                              "'                   ..    .; .

                                                                                                        ~~~~
                                                                                                 Office df
                                                                                                                 :.       ;j



                                                                                               . Human Development SerVIces
                                                            (F ,-     C'
                                                                    'i.(. 




                                                            IS39 SEP IS                  1':     Assistant Secretary
                                                                                                 Washington DC 20201
                                                                              PN
                                                                                   2:




                          SE I 5      1989
                                                                                                        IG

                                                                                                                       L- ­
                                                                                                        AIGA

       TO:               Richard P. usserow
                         Inspect General
       FROM:             Assis ant secretary
                                                                                                        ADM '
                           for Human Development Services
                                ..v
                                                                                      I)A     1!r-

      SUBJECT:           Draft Report on                   - Dysfunctional Families in the Head
                         Start Program:                    Meeting the Challenge, OAI-09-89-0l000


      Attached are comments on the draft report by the Office of

      Inspector General (OIG) on . Dysfunctional Families in the Heaa
      Start Program: Meeting the Challenge, . OAI-09-89-0l000.
      This report is valuable as it captures current impressions on the

      nature and prevalence of dysfunctional
 families in Head Start. 

      also describes how Head Start programs are responding to the

      special needs of these families.


      I woald like to thank your oftice for the timely completion of

      this report. It                          was especially useful that Paul Gottlober, Region
      IX, Office of Analysis and Inspections, could share the findings

      at the recent First National Insti tute for Head Start Social
      Services Coordinators. The report' s content was most relevant to
      the Institute'                    s attendees. Mr. Gottlober will be working with the
      Head Start Bureau on further analysis of the OIG report data using

      demographic data that the Bead Start Bureau 

                                                                          collected in the

      1987- 88 program year. The demographic data on each Head Start
      grantee include, for example, the distribution of income among

      families served by the program as well as the parents' educational

      attainment and employment status. These data bases are being

      shared to explore relationships between program demographic

      information and reported incidence of dysfunctional families.
      We apprectiate the opportunity to comme
      am pleaseG with the amount of communication between the Office of

                                                                              nt on this draft report.
      Human Development Services and                                OIG.
                                                  This communication can assist
      in effectively coordinating efforts which 

                                                            result in useful

      information. I f you                             will

                                            have any questions on the comments on t
      draft report,        please call Deborah Bass at 
                                245-3176.



      Attachment
     COMMENTS OF THE OFFICE OF HUMAN DEVELOPMENT SERVICES ON TH
     OFFICE OF INSPECTOR GENERAL' S REPORT, - DYSFUNCTIONAL FAMILI ES
     IN THE HEAD START PROGRAM: MEETING THE CHALLENGE,

     OAI-09- 89-0l000



General Comments


I would like to commend the staff of the Office of Inspector

General (OIG) for the timeliness and quali ty of this       report.
                                                              The
report captures current impressions on the nature and prevalence

of dysfunctional families in Head Start. It also describes how

Head Start programs are responding to the special needs of those

families.  Most of the respondents to the OIG felt that Head
Start was an appropr iate vehicle to serve dysfunctional

families.
It is noted that the report excluded any information on the

Indian or Migrant Head Start programs. There was no explanation
of why these groups were not in     luded.       Alcoholism is a major, if
not the leading, problem among the Indian population, yet this

group was not included. In addition, the Indian community has
had years of experience in dealing with the kinds of problems

that are now characterized as - dysfunctional. -          any migrant

families are dysfunctional primarily because of the instability

of their lifestyles. It would have been Useful to see how

migrant programs cope with the severe needs of families who face

some of the same problems as families in traditional programs.

Many of the issues raised in the OIG report will be addressed in

proposed Head Start evaluation projects for fiscal year 1990.
The Off ice of Human Development Services (OHDS) will be gathering

more specific information on the characteristics of families

served by Head Start and the responses of grantees to those

needs. Particular attention will be given to those problems
rated in your study as most prevalent in dysfunctional families,
i. e., substance abuse, child abuse and neglect, domestic
vioience, and inadequate housing.
 Page 2




 OIG Recommendation 


 If additional funds are available for the Head Start program, as

proposed in the presiden t' s 1990 budget, a portion of the funds
should be set aside to address the needs of dysfunctional

 families. .
OHDS Comment


We do not concur with the    recommendation.
In distributing new funds for expansion, our primary objective

will be to ensure that all communities in the country have an

opportuni ty to receive a fair share of Head Start funds that is

proportionate to their population of eligible  children.   However,
although we do not intend to reserve funds specifically for

serving dysfunctional families, we will continue to actively

encourage grantees to serve families wi th special needs.


Within the framework of the national goal of serving up to 95,
                                                               000
additional children, grantees will be given as much- flexibility
as possible to target expansion resources on dysfunctional

families and to design special services to meet their needs.

In addition, the Head Start Bureau, Administration for Children,

You th and Families (ACYF), has received the report of the Head

Start Social Services Task    Force.
                                   That report includes specific
recommendations for allocating social service resources to

address the needs of dysfunctional families. We will incorporate

these recommendations in a plan for better serving the social

service needs of all families, including those described as being

dysfunctional.
OIG Recommendation #2


 Head Start should consider revising its enrollment criteria to

assure that grantees have the flexibility to enroll children of

dysfunctional families even if their income is above the poverty

level. .
OHDS Comment

We do not concur wi th   the recommendation.
The Head Start Bureau, ACYF, encourages grantees to consider
multipl criteria in filling the ten percent over-
available in current law and regulation.. H9wever, income slots
                                                    analyses of

 Page 3




 the    1987- 88 program Information Report (PIR) indicate that 54
 percent of the programs report that less than fi ve percent of the
 families served are over-income; only        percent of the grantees
 report that more than nine percent of their
                                           19
                                                - families are
 over- income guidelines. For most grantees, there      is room for
    lexibili ty, wi thin existing guidelines, to increase the number

 of over- income families served.

The Administration for Children, Youth and Families is drafting a

revision of 45 CFR Part     1305.
                                The revision will specify the
recrui tment, selection, and enrollment procedures which will
require that each grantee has a formal process for selecting

children from among applicants that considers specific family

needs in addition to income. The comment and review process for
this Notice of Proposed Rulemaking will provide us with an

opportuni ty to further consider the question of whether changes

in Head start enrollment pOlicy should be made.


Addi tionally, ACYF will promote grantee responsiveness to
opportunities at the State and local . levels
                                            to extend the Head
Start model of services to a wider range of families. For

example, in Rhode Island, programs are now able to use State

funds to extend services to more of the . working poor.
Start Bureau recognizes                                  The Head
                           must increasingly become involved

technical assistance to support the coordination of services
funding to meet the needs of families.                          and

OIG Recommendation #3


 Head Start should use its discretionary grant authority to
develop ways of providing better access to community          (a)
                                                      resources,
(b) develop and test new and better approaches for Head Start
grantees to assist dysfunctional families, and (c) collect and

disseminate successful strategies and best practices
grantees are using to meet the needs of dysfunctional that
                                                       families.


OHDS Comment


We concur with the    recommendation.
Head Start'   s coordinated discretionary grants authori
and will increasingly be, directed to enhancing the ty has been,
grantees to effectively serve dysfunctional families capaci ty of

                                                      and to

promote family self-sufficiency. The OIG' s report, feedback from

OHDS Regional Offices, and the Head Start Social Services Task

Force report have all underscored the need for high-
resources and technical assistanc
 to enable granteesquality
                                                       to address
the needs of dysfunctional families.
